2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-1039
PENNEAST PIPELINE COMPANY, LLC,
Petitioner,
v.
STATE OF NEW JERSEY; et al.,
Respondents.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 23rd day of March, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF THE INTERSTATE NATURAL GAS ASSOCIATION
OF AMERICA, AMERICAN GAS ASSOCIATION AND AMERICAN PETROLEUM INSTITUTE AS AMICI CURIAE IN
SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been served by third-party
commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
LELA M. HOLLABAUGH
Counsel of Record
BRADLEY ARANT BOULT
CUMMINGS LLP
1600 Division Street
Nashville, TN 37203
(615) 252-2348
lhollabaugh@bradley.com

NICHOLAS A. DANELLA
BRADLEY ARANT BOULT
CUMMINGS LLP
1819 Fifth Avenue North
Birmingham, AL 35203
(205) 521-8576
ndanella@bradley.com
Counsel for Amici Curiae

Subscribed and sworn to before me this 23rd day of March, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Notary Public

Affiant

